3             Office of Audits
              Office of Inspector General
              U.S. General Services Administration




               Audit of the Heartland Region Public Buildings
               Service’s Award and Administration of Blanket
               Purchase Agreements GS-06P-07-GX-A-0009 and
               GS-06P-08-GX-A-0076

               Report Number A120140/P/6/R13005
               April 4, 2013




    A120140/P/6/R13005
              Office of Audits
              Office of Inspector General
              U.S. General Services Administration


 DATE:           April 4, 2013
 TO:             Jason Klumb
                 Heartland Regional Administrator (6A)

                 Cy Houston
                 Acting Regional Commissioner for PBS (6P)


 FROM:           Erin P. Priddy
                 Audit Manager, Heartland Region Audit Office (JA-6)
 SUBJECT:        Audit of the Heartland Region Public Buildings Service’s Award and
                 Administration of Blanket Purchase Agreements GS-06P-07-GX-A-
                 0009 and GS-06P-08-GX-A-0076
                 Report Number A120140/P/6/R13005

This report presents the results of our audit of Blanket Purchase Agreements (BPAs) for
consulting services established with Adams-Gabbert & Associates, LLC (Adams-
Gabbert) and related orders.

The objective of this audit was to determine whether the Heartland Region Public
Buildings Service (PBS) awarded and administered the Adams-Gabbert BPAs in
accordance with laws, regulations, and guidance.

From January 2007 through August 2010, multiple orders were issued against the
Adams-Gabbert BPAs to provide a variety of services as requested by regional PBS
management. However, management did not provide sufficient information to develop
defined scopes of work and measurable deliverables or the oversight needed to ensure
that costs did not exceed benefits. As a result, PBS did not fully comply with the
Federal Acquisition Regulation (FAR), the Competition in Contracting Act, or internal
PBS guidance in awarding and administering the BPAs and associated orders. The
Government also received limited benefit from the $2.6 million spent.

See Appendix A – Purpose, Scope, and Methodology for additional details.

Your written comments are included in Appendix B of this report.




A120140/P/6/R13005                     1
If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

      Erin Priddy       Audit Manager          erin.priddy@gsaig.gov      816-926-8610
      Katina Luke       Auditor-In-Charge      katina.luke@gsaig.gov      816-926-8613
      John Pollock      Auditor                john.pollock@gsaig.gov     816-926-8616

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120140/P/6/R13005                      2
Background

On January 17, 2007, PBS established BPA 1 GS-06P-07-GX-A-0009 with Adams-
Gabbert for consulting services in support of improving internal business processes.
The term of this initial BPA was for a 1-year base period plus two 1-year option periods.
Although the BPA had an estimated value of $101,790, PBS issued 12 orders against
this BPA totaling $1,846,178.

On December 1, 2008, PBS established BPA GS-06P-08-GX-A-0076 with Adams-
Gabbert for program management and business process reengineering. The term of
this second BPA was for a 1-year base period plus four 1-year option periods. This
BPA had an estimated value of $2.5 million. PBS issued nine orders against this BPA
totaling $801,886.

These BPAs established an arrangement for services under the authority of FAR
Subpart 8.4.

Results

The Adams-Gabbert BPAs and orders were not awarded and administered in
accordance with laws, regulations, and guidance and provided limited benefits.

PBS established BPAs under the Adams-Gabbert Multiple Award Schedule contract so
that regional PBS management could obtain consulting services to improve and re-
engineer its internal business processes. From January 2007 through August 2010,
multiple orders were issued against the BPAs to provide a variety of services as
requested by regional PBS management. However, management did not provide
sufficient information to develop defined scopes of work and measurable deliverables or
the oversight needed to ensure that costs did not exceed benefits. As a result, PBS did
not fully comply with the FAR, the Competition in Contracting Act, or internal PBS
guidance in awarding and administering the BPAs and associated orders. The
Government also received limited benefit from the $2.6 million spent.

The primary award and administration issues we identified with the initial BPA and its
orders included:

    ·   Acquisition plans, required by FAR 7.1, which would have included cost
        estimates and their rationale, were not prepared.

    ·   A quality assurance surveillance plan, which is required by FAR 46.4, was not
        prepared.

    ·   Although required by FAR 8.405-2(d), the award evaluation factor ratings were
        not fully supported.
1
  A BPA is an agreement between an ordering agency and a contractor that affords the agency a
simplified method of filling anticipated repetitive needs for supplies or services.


A120140/P/6/R13005                        3
   ·   Six orders totaling $1.3 million placed under the BPA violated competition
       requirements of the Competition in Contracting Act because the orders were
       awarded after the expiration of the BPA.

   ·   The BPA was not re-competed after changes in the scope of work resulted in
       expenditures of $1.8 million compared to the BPA estimate of $101,790. The
       substantial increase in requirements is tantamount to a sole source procurement.

   ·   Adams-Gabbert subcontracted 45 percent of the billings although the offer did
       not propose use of subcontractors. Accordingly, the Government did not have
       the opportunity to ensure that the individuals performing the work were qualified.

   ·   Two non-schedule labor categories for $200/hour and $300/hour were awarded
       without a determination of price reasonableness, as required by FAR 8.402(f).

   ·   Orders lacked government-prepared statements of work required by FAR 8.405-
       3(b)(3) and price reasonableness determinations required by FAR 8.405-2(d).

   ·   Oversight of order invoices was not performed in accordance with FAR 8.406-
       2(b), and the contracting officer representative performing this task was not
       issued a designation letter as required by PBS Procurement Information Bulletin
       07-01.

In addition, while the award documentation indicated the orders were firm-fixed price,
PBS administered the orders as time-and-material. Most Adams-Gabbert invoices
under the initial BPA contained no information regarding work performed. Rather, the
invoices presented the names of each individual and the number of hours worked, but
did not provide progress status (e.g., percentage of completion) or a listing of
deliverables furnished. PBS paid the invoices through verification of the labor rates but
did not verify the hours worked or the actual work performed. A July 2008 email from a
member of the regional PBS Board of Directors emphasized this issue, stating “we don’t
have a good feel for the tasks they [Adams-Gabbert] are accomplishing.”

Heartland Region PBS performed an internal review of the initial BPA and identified
many of the same award and administration issues as our audit. Deficiencies from a
contracting perspective were improved for the award and administration of the second
BPA and its orders. However, the lack of support for cost estimates continued, and we
noted the total costs for several orders were unclear. In addition, PBS continued to
administer the orders as time-and-material orders although the award documentation
indicated these orders were firm-fixed price.

The contracting office was responsible for the planning, award, and administration of the
BPAs and corresponding orders. However, the customer (regional PBS management)
was responsible for providing the contracting office with sufficient information and
oversight to enable adequate performance of these responsibilities. We found that PBS
regional management did not provide the contracting officer with the necessary input to


A120140/P/6/R13005                      4
ensure their need was met in a cost effective manner. This ultimately affected the cost
and usefulness of the services Adams-Gabbert performed. For example:

   ·   The primary deliverable for five orders totaling $1,288,043 was to map the realty
       process. One purpose was to use the maps as a training tool for new hires.
       While some PBS management representatives asserted that the maps were
       used, PBS associates advised that the maps were not used as a key training tool
       and had not been updated in two years. PBS associates stated that other
       resources, including on-the-job training and other reference materials, were the
       primary PBS training tools.

   ·   A program guide was the primary deliverable associated with two orders totaling
       $459,869 for linking strategy to execution. The guide does not reflect current
       PBS practices because PBS has not updated it in over a year and is, therefore,
       no longer useful.

   ·   The Realty Reporting Tool that cost $216,415 was used for only a short time
       because the tool used a PBS system that was replaced shortly after the tool was
       completed. The last invoice for this order was submitted in November 2010 and
       the new system became operational in July 2011. PBS was aware of this
       upcoming system change when it placed this order under the Adams-Gabbert
       BPA.

   ·   A primary deliverable under the Standardized Project Review order for $214,708
       was the Stakeholder Evaluation Risk Matrix. However, the matrix was used for
       only a short time because it was not fully adopted by PBS associates, and PBS
       management no longer requires its use on projects.

   ·   The Design and Construction Division Metrics Database Reporting Tool that cost
       $52,850 was utilized briefly until a system change rendered its interfaces invalid.
       It is no longer used.

   ·   An order for $35,873 was awarded to identify improvement opportunities in the
       interview and hiring processes, but PBS advised that the process has not
       changed.

   ·   The Decision Matrix Tool developed by Adams-Gabbert for $27,178 was
       determined by PBS to be unusable after testing.

Conclusion

For both BPAs, prior PBS regional management provided insufficient information and
oversight of the orders to ensure useful deliverables were obtained and that costs did
not exceed benefits. Current PBS regional management advised that business benefits
were received from the products Adams-Gabbert delivered but concurred that
deficiencies were present.


A120140/P/6/R13005                      5
This report does not include recommendations because (1) the PBS regional
management responsible for the orders under these BPAs has been replaced and (2)
current PBS regional management acknowledged the deficiencies with the BPAs and
has already implemented additional controls over contracting practices including the
following:

   ·   A Senior Contracting Officer position was added to facilitate management and
       oversight of special projects acquisitions, such as this procurement.

   ·   A PBS employee with contracting expertise is now a member of the regional PBS
       management group and supervises the Service Contracts Branch. In addition,
       PBS is now reviewing the accountability structure for all contracting personnel.

   ·   The contract checklist used by PBS has been updated to require evidence and
       tracking of all deliverables. Furthermore, deliverables must now be housed
       within the main contract file.

   ·   Contracting officer representatives are now required to be trained and certified
       prior to being assigned contract administration responsibilities.

Together with the PBS regional management changes, we believe these controls will
ensure errors do not recur.

Management Comments

The Heartland Regional Administrator did not take exception with the report, and his
written comments are included in Appendix B.




A120140/P/6/R13005                     6
Appendix A – Purpose, Scope, and Methodology
Purpose

We performed this audit to examine concerns within the General Services
Administration of potential waste regarding BPAs established under the Adams-Gabbert
Multiple Award Schedule contract. Specifically, the concerns relate to whether orders
placed under the BPAs had measurable deliverables and whether the total contract
value was commensurate with the deliverables received.

Scope

The scope of our review was limited to the award and administration of BPAs and
related orders to Adams-Gabbert.

Methodology

To accomplish our objective, we:

   ·   Reviewed documents related to BPA GS-06P-07-GX-A-0009 (effective January
       17, 2007, to January 16, 2008) and the 12 orders awarded under the BPA.
   ·   Reviewed documents related to BPA GS-06P-08-GX-A-0076 (effective
       December 1, 2008, to November 30, 2011) and the nine orders awarded under
       the BPA.
   ·   Interviewed Heartland Region PBS personnel.
   ·   Held discussions with Adams-Gabbert officials and reviewed information
       provided by Adams-Gabbert.
   ·   Reviewed relevant criteria, including the FAR, General Services Administration
       Acquisition Manual, Competition in Contracting Act, and Procurement Information
       Bulletins.

We conducted the audit between May 2012 and January 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The examination of internal controls was limited to the BPAs and orders reviewed
during this audit. Thus, our evaluation of internal controls was limited to items
discussed in the Results section of this report.




A120140/P/6/R13005                    A-1
Appendix B – Management Comments




A120140/P/6/R13005    B-1
Appendix C – Report Distribution
Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (PD)

Acting PBS Chief of Staff (PB)

Acting Director, PBS Executive Response (PBA)

Regional Administrator, Heartland Region (6A)

Acting Regional Commissioner for PBS, Heartland Region (6P)

Regional Legal Counsel, Heartland Region (LD6)

Division Director, GAO & IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Audit Liaison, Heartland Region (6P)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120140/P/6/R13005                     C-1
